XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6190
Facsimile: (916) 731-2122
E-Mail: Scott.Hayward@doj.ca.gov

July 27, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
RE:

William Kirkpatrick, Jr. v. Kevin Chappell, Warden
No. 20-5089
Request for Extension of Time to File Brief in Opposition to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent the respondent, Ron Broomfield, in the above-entitled case. The petition for a
writ of certiorari was filed on February 11, 2020. The brief in opposition to the petition is
currently due on August 17, 2020. Pursuant to Rule 30.4, I respectfully request that the time for
filing that brief be extended by thirty days, to Wednesday, September 16, 2020.
An extension of time would better enable the preparation of a response that respondent
believes would be most helpful to the Court.
Accordingly, I request that the due date for the brief in opposition to the petition for a
writ of certiorari be extended to September 16, 2020.
Respectfully submitted,

/s/ A. Scott Hayward
A. SCOTT HAYWARD
Deputy Attorney General
For

cc: Patricia Young, Counsel for Petitioner

XAVIER BECERRA
Attorney General

